No. 20-1199

In the

Supreme Court of the United States
_______________

STUDENTS FOR FAIR ADMISSIONS, INC.,
Petitioner,
v.
PRESIDENT AND FELLOWS OF HARVARD COLLEGE,
Respondent.
_______
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the First Circuit

______________

BRIEF OF ECONOMISTS AS AMICI CURIAE IN
SUPPORT OF PETITIONERS

_______________

C. BOYDEN GRAY
Counsel of Record
JONATHAN BERRY
MICHAEL B. BUSCHBACHER
JAMES R. CONDE
T. ELLIOT GAISER
JORDAN E. SMITH
BOYDEN GRAY & ASSOCIATES
801 17th Street NW, #350
Washington, DC 20006
(202) 955-0620
info@boydengrayassociates.com

QUESTIONS PRESENTED
1.
Should this Court overrule Grutter v.
Bollinger, 539 U.S. 306 (2003), and hold that
institutions of higher education cannot use race as a
factor in admissions?
2. Is Harvard violating Title VI by penalizing
Asian-American applicants, engaging in racial
balancing, overemphasizing race, and rejecting
workable race-neutral alternatives?

ii

TABLE OF CONTENTS
QUESTIONS PRESENTED ....................................... i
TABLE OF AUTHORITIES...................................... iv
INTEREST OF AMICI CURIAE ............................... 1
INTRODUCTION ....................................................... 1
STATEMENT ............................................................. 2
I.

Statistical Principles Relevant to the Petition .. 2

II.

Statistical Modeling Evidence Relevant to the
Petition ................................................................ 6
A.

Harvard admits that it discriminates in the
overall rating. .............................................. 7

B.

Harvard disputes that it discriminates in
the personal rating. ................................... 10

C.

The personal rating significantly affects
admissions modeling results. .................... 13

III. The Decisions Below Preferred Including the
Personal Rating. ............................................... 16
SUMMARY OF ARGUMENT .................................. 17
REASONS FOR GRANTING THE PETITION ...... 18
I.

The Statistical Evidence of Discrimination
Makes This an Ideal Vehicle to Revisit Race
Discrimination in College Admissions. ............ 18
A.

The Statistical Evidence is Robust. .......... 18

B.

The Statistical Evidence of Racial
Discrimination is Robust. ......................... 20

iii
II.

The Statistical Evidence of Discrimination
Against Asian Americans Makes This an Ideal
Vehicle to Clarify the Scope of Title VI. ........... 21
A.

The court below erred when it suggested the
statistical evidence of an Asian American
“penalty” was not significant. ................... 22

B.

The court below erred by finding that
inclusion of the personal rating was proper.
.................................................................... 24

CONCLUSION ......................................................... 29
APPENDIX A: AFFILIATIONS OF AMICI CURIAE

iv
TABLE OF AUTHORITIES
Cases
Bray v. Alexandria Women’s Health Clinic,
506 U.S. 263 (1993)..................................................5
Grutter v. Bollinger,
539 U.S. 306 (2003).......................................... 17, 21
Regents of Univ. of Calif. v. Bakke,
438 U.S. 265 (1978). ............................................... 18
Statutes
42 U.S.C. § 2000d ...................................................... 21
Other Authorities
Daniel McFadden, Quantitative Methods for
Analyzing Travel Behavior of Individuals: Some
Recent Developments (Nov. 22, 1977),
https://bit.ly/2JyWFCX .......................................... 26
Nat’l Research Council, Reference Manual on Scientific Evidence (2011). ...............................................4
Ruth Bader Ginsburg, Remarks for Touro Synagogue
Celebration of the 350th Anniversary of Jews in
America (Aug. 22, 2004) ..........................................5
The Economist, A Lawsuit Reveals How Peculiar
Harvard’s Definition of Merit Is (June 23, 2018),
https://econ.st/2MmJeYx. ...................................... 25

1

INTEREST OF AMICI CURIAE 1
Amici Michael P. Keane, Hanming Fang,
Christopher J. Flinn, Stefan Hoderlein, Yingyao Hu,
Joseph P. Kaboski, Glenn C. Loury, Thomas A. Mroz,
and Matthew S. Shum are distinguished economists
who have extensively studied the kind of statistical
and econometrics tools used by the experts in this
case. Indeed, Harvard’s statistician admitted that he
assigns writings from amicus Dr. Keane to explain to
his students the very tools used in this case.
JA3232:23–3234:1. The institutional affiliations of
amici are listed for identification purposes only in
Appendix A.
Amici agree that the statistical evidence in this
case shows that Harvard discriminates based on race
in admissions.
INTRODUCTION
For the first time, extensive discovery into
Harvard’s admissions process has allowed expert
statisticians under the hood, so to speak, to examine
the extent to which Harvard discriminates based on
race. The dataset in this case is comprehensive,
including hundreds of applicant characteristics for the
approximately 150,000 people who applied to Harvard
over six years of admissions. This extensive dataset
Counsel of record for all parties received notice at least 10 days
prior to the due date of the Amici Curiae’s intention to file this
brief and responded with consent in writing. No party’s counsel
authored this brief in whole or in part, and no person or entity
other than amici or their counsel made a monetary contribution
intended to fund its preparation or submission.
1

2
allowed the parties’ experts to build logistic regression
models of Harvard’s admissions process that control
for over two hundred observable applicant
characteristics. JA3152:17–18, 6010. These controls
allowed the experts to determine the effect of race on
admissions
while
holding
other
applicant
characteristics constant.
When all relevant observable characteristics are
accounted for, the models reveal that Harvard
discriminates based on race. The compelling
statistical record of racial discrimination makes this
case an ideal vehicle to revisit the proper role of race
in college admissions and clarify the scope of nondiscrimination law under Title VI.
STATEMENT
I.

Statistical Principles Relevant to the
Petition

Regressions are mathematical tools used to
understand associations between an outcome and an
explanation. Logistic regressions are a type of
regression used to determine an association between
a discrete set of outcomes and a particular
explanation.
For example, if one wanted to know how to land
a clerkship with a Supreme Court Justice, one could
begin by plotting the association between law school
grades and landing a clerkship. Because the outcome
is discrete, in this case binary (either one lands a
clerkship or one does not), a linear regression is
useless. Instead, the model needed is logistic
regression, a form of regression that uses a probability
function to see how grades are associated with the

3
likelihood of landing a clerkship. In this case, the
strength of the relationship—the “coefficient”—
between grades and clerkship would be positive. The
higher the grades, the higher the likelihood of landing
a clerkship. To illustrate:

The data points are all no clerkship (0), or
clerkship (1), making a linear function impossible.
Instead, a probability function is needed to measure
the association of grades and the likelihood of landing
a clerkship.
In the real world, of course, Justices do not
consider grades alone. Rather, they consider multiple
characteristics, including law-school ranking, letters
of recommendation, prior clerkship experience,
background, philosophy, and many other observable
and unobservable factors that vary by Justice. A
model that plots the likelihood of landing a clerkship
based on grades alone would be nearly useless if one
is interested in how the Justices pick clerks. The
model would omit too much important information. A
more complex model with multiple variables is
needed.

4
Even worse, a grades-only model is likely
misleading, because it would likely suffer from a form
of bias called omitted variable bias. Omitted variable
bias happens when two things are true at the same
time. First, the omitted variable must explain part of
the decision to hire clerks, the outcome. Second, the
omitted variable must also be correlated with grades,
the explanation. If both of those are true, then
omitting the variable makes the model worse than
useless—it is misleading, because grades would “be
credited with an effect that actually is caused by the
excluded variable.” Nat’l Research Council, Reference
Manual on Scientific Evidence 314 (2011). Conversely,
if either thing is not true, then there is no omitted
variable bias. A model may exclude relevant
explanatory variables, and yet not suffer from any
bias.
For example, in our grades-only logistic model,
because prior clerkship experience is associated with
higher grades, and explains part of landing a Supreme
Court clerkship, the model would be biased. Grades
would get credit for the effect of having prior clerkship
experience, so the omission of prior clerkship
experience biases the model. Specifically, it would
suggest an effect for grades that is too high.
Conversely, however, an interest in fly fishing may
affect the likelihood of landing a clerkship with a
particular Justice, but if fly fishing is not correlated
with grades, then the omission of fly fishing does not
bias the model.
Adding variables, however, is not always better.
Including some variables may make a model
misleading, introducing a form of bias one could call
“included variable bias.” Included variable bias

5
happens when the included variable is itself
influenced by the variable of interest. This falsely
dilutes the explanatory power or “coefficient” of the
variable of interest.
For example, imagine you want to know to what
extent Justice McReynolds—who was “openly antiSemitic” 2—discriminated against Jews when hiring
clerks. You would not want the model to include
“wearing yarmulkes” as a variable, because
discriminating against yarmulkes is discriminating
against Jews. See Bray v. Alexandria Women’s Health
Clinic, 506 U.S. 263, 270 (1993). In this case, inclusion
of yarmulkes in the model could make it appear as if
Justice McReynolds was somewhat averse to both
Jews and yarmulkes, showing modest negative
coefficients for both. In reality, however, Justice
McReynolds was just anti-Semitic. In an accurate
model, the negative coefficient for Jews should be very
large. But the inclusion of yarmulkes in the model
obscures that fact.
Similarly, if the model instead included a
variable on how Justice McReynolds rated applicants
based on their “character” or “fitness” to be his clerks,
those subjective assessments could easily conceal
Justice McReynolds’ virulent anti-Semitism. If the
statistical evidence suggests that the subjective rating
is racially biased, it should not be included in the
model.

See Ruth Bader Ginsburg, Remarks for Touro Synagogue Celebration of the 350th Anniversary of Jews in America (Aug. 22, 2004).
2

6
These statistical principles are not disputed by
the parties. But the parties dispute their application
to this case.
II. Statistical Modeling Evidence Relevant to
the Petition
As with the decision to hire a clerk, the decision
to admit an applicant to Harvard is complex and
multifaceted. Harvard considers an enormous
quantity of information about prospective students.
The experts’ best admission models control for the
overwhelming number of observable variables, which
number over 200. JA3152:17–18. “Their admission
models are broadly similar” and predict admissions
based “on a wide range of observable variables,”
including demographics like race and sex,
geographical indicators, academic measures like SAT
test scores, and Harvard’s applicant ratings. App.185;
JA6010. The experts disagree only over a narrow
range of modeling choices, including whether to
include certain control variables. App.186.
The most important modeling dispute centers on
one of the “profile” ratings assigned by Harvard’s
admission readers. “There are six types of ratings
assigned during the reading stage: academic ratings,
extracurricular ratings, athletic ratings, school
support ratings, personal ratings, and overall
ratings.” App.16. Profile ratings are numerical, with 1
being best and higher numbers usually being worse.
App.16. Because Harvard is interested in wellrounded applicants, scoring a 1 or a 2 on multiple
profile ratings is very predictive of admission.
JA6037.

7
Two profile ratings are particularly relevant to
race: the overall rating, which everyone agrees should
be excluded from admissions models, and the personal
rating, which the experts disagree on whether to
include or exclude.
A. Harvard admits that it discriminates in
the overall rating.
The overall rating is a subjective assessment that
“takes all available information into account” to
evaluate a candidate’s overall probability of
admission. App.20. Harvard concedes that admission
officers can and do often intentionally discriminate
based on race by granting “tips” to favor African
Americans and Hispanics in the overall rating.
App.21, 24. Harvard “intends” that race be factored in
this rating. App.196.
Harvard’s concession is compelled by the data.
Petitioners’ expert developed a logistic regression to
see how race correlates with the overall rating. This
model shows race discrimination. In the picture
below, the dark blue arrows show how a particular
race would be expected to do compared to whites based
on all observable data that informs the overall rating.
The grey column shows the coefficient for each race—
i.e., the strength of the association between a
particular race and the likelihood of getting a good
overall rating from Harvard, all other things being
equal. JA2272:3–2273:18.

8

JA6015. 3
Harvard’s overall ratings are inexplicable
without racial discrimination. The coefficients are
precisely the opposite of what one would expect based
on other observable data. Based on that data, Asian
Americans should do better than whites on the overall
rating, but they do worse. App.195–96. African
Americans and Hispanics would be expected to do
much worse than whites (and Asian Americans) on
the overall rating, but they do much better. Indeed,
the overall rating coefficient for African Americans is
This demonstrative was developed using a “baseline” dataset
that excluded athletes, legacies, dean’s list applicants, and children of faculty and staff. But the expanded dataset shows similar results. Rebuttal Expert Report of Peter S. Arcidiacono 170,
Doc. 415-2, Table B.6.8R (Arcidiacono Rebuttal).
3

9
very large, indicating that the mere fact of being
African American is associated with a strong
probability of receiving a good overall rating because
of a racial plus-factor, what Harvard calls a racebased “tip.” JA2273:7–15, 2255:25–56:10.
To illustrate the magnitude of the bias,
Petitioners’ expert used these model coefficients to
counterfactually isolate the “average marginal effect”
of race on the overall rating: the probability of getting
a good overall rating based on race, compared to an “if
white” counterfactual. App.184–85; JA2258:12–
2259:24. For example, the average marginal effect of
Asian Americans on the overall rating is calculated by
first taking every Asian American applicant in the
sample and calculating two probabilities using the
model coefficients: their probability of getting a good
overall rating if they were Asian American and their
probability of getting a good overall rating if they were
white. App.185; JA2184:8–17, 2240:24–2242:12. “The
difference in the two probabilities is called the
marginal effect of being Asian American for that
applicant.” App.95 n.43. The marginal effect can then
be averaged out over all Asian American applicants.
App.95 n.43.
This analysis shows that compared to whites, the
increase in the probability of scoring a two or better
on the overall rating for African Americans is 315%,
for Hispanics it is 126%, and for Asian Americans it is
-7%.

10
Race
White
African American
Hispanic
Asian American

No racial
preference
(“If White”)

n/a
0.013
0.019
0.056

Actual
(“Own
Race”)
0.047
0.054
0.043
0.052

Percentage increase in
probability of 2 or
better

n/a
315.38%
126.32%
-7.14%

Arcidiacono Rebuttal 116, Table 6.2R.
This bias is important. Only 1.5% of all applicants
with an overall rating of 2 or better were rejected,
while nearly 70% of applicants with less than a 2 were
rejected. JA4530. Given that a good overall rating is
important to gain admission, the racial bias in the
overall rating alone is significant evidence of racial
discrimination in admissions.
Because the overall rating contains “racial tips,”
both parties’ experts agreed that the rating must be
excluded from the admissions model. App.195. This
logic is sound: the purpose of the admissions models is
to determine the effect of race on admission to
Harvard, not to perfectly predict whether a particular
applicant is likely to be admitted. Including the biased
overall rating artificially waters down the coefficient
of the variable of interest, race. That would introduce
“included variable bias” into the admissions model.
B. Harvard disputes that it discriminates in
the personal rating.
Harvard claims the personal rating is a
subjective measure of “perceived leadership,
maturity, integrity, reaction to setbacks, concern for
others, self-confidence, likeability, helpfulness,
courage, kindness, and whether the student is a ‘good
person to be around.’” App.19. As the court of appeals

11
recognized, “almost any information in a student’s
application can factor into the personal rating.”
App.19. The personal rating is important. Over threefourths of Harvard’s admitted applicants had a
personal rating of 2 or better. JA4530.
“Harvard maintains that race itself does not play
a role in a student’s numerical personal score.”
App.20. Harvard’s guidelines during the relevant
years “did not mention whether race should be
included in assigning the personal rating.” App.20.
As with the overall rating, Petitioners’ expert
developed a logistic regression of the personal rating.
Because “Harvard did not offer a competing
regression model to show that no statistically
significant relationship between Asian American
identity and the personal rating exists,” the courts
relied on Petitioners’ model of the personal rating.
App.189–90. As the court of appeals noted, “[t]his
logistic regression model showed that there was a
negative correlation between an applicant’s personal
rating and Asian American identity even when
controlling for various factors related to” the personal
rating. App.50. 4

4

The opinion mistakenly says “related to admission.”

12

JA6015. 5
The same pattern found in the overall rating
holds for the personal rating. JA2273:19–2274:8.
Here, the observable data suggests that Asian
Americans should have better personal ratings
compared to applicants from other groups. JA6015
(Asian American Observable +0.020; African
American
Observable
-0.374,
Hispanic
Observable -0.268). But the opposite is true. The
coefficients for Asian Americans are significant and
negative for the personal rating. JA6012, 6015 (0.398). This means that Asian Americans were less
likely than whites to receive a good personal rating.
The results are similar when using the expanded dataset. Arcidiacono Rebuttal 115, 175, Tables 6.1R & B.6.12.R.
5

13
JA2257:23–2258:3. By contrast, the coefficients for
African Americans and Hispanics are significant and
positive, meaning they were more likely to score well
on the personal rating than whites, other things
equal. JA6012, 6015 (+0.682 and +0.279). These
regression coefficients warrant an inference that just
like the overall rating, the personal rating assigned by
Harvard is “significantly influenced by race.”
JA2258:6–7.
To illustrate the magnitude of the effect of race
on the personal rating, Petitioners’ expert calculated
the marginal effect of race on the personal rating. The
effect of race on the personal rating is large. In the
absence of race, the probability of Asian Americans
receiving a 2 or better on the personal rating would
increase from 17.8% to 21.6%, a 21% increase in their
probability of receiving a 2 or better. JA6013. By
contrast, the probability of African Americans or
Hispanics receiving a 2 or better would drop
significantly: from 19.3% to 15.2% for African
Americans, a 21% decrease, and from 19.2% to 16.8%
for Hispanics, a 12% decrease. JA6013. A likely
explanation for these effects is that, just as with the
overall rating, some Harvard readers give significant
weight to an applicant’s race when scoring the
personal rating.
C. The personal rating significantly affects
admissions modeling results.
While there is no question that Harvard
discriminates based on race at multiple stages,
including when assigning overall ratings, the extent
to which this evidence of discrimination is visible in
the results of the admissions models depends on the

14
inclusion or exclusion of the personal rating. As the
court of appeals correctly found, “[i]f the personal
rating is excluded, … being Asian American has a
statistically significant negative effect on an
applicant’s chance of admission to Harvard.” App.85–
86. Even more clearly, the district court found that
being African American and Hispanic is associated
with a significantly increased chance of admission,
compared to whites. App.209–10.
The admissions model preferred by Petitioners’
expert, without the personal rating, shows clear racial
discrimination.

JA6017.
Being African American and Hispanic is
associated with a 324% and 141% increased chance of
admission compared to whites, respectively, while
being Asian American is associated with a 16%

15
decreased chance of admission compared to whites.
JA6017.
Harvard concedes that it gives “tips” to preferred
races. According to Harvard, “race is a determinative
tip for approximately 45% of all admitted African
American and Hispanic applicants.” App.209. But
Harvard disputes the extent to which Asian
Americans do worse compared to whites. To the extent
that this narrow statistical comparison is relevant,
the admissions model preferred by Harvard’s expert
suggests discrimination against Asian Americans
compared to whites over all six years if only the
personal rating is removed. JA3149:1–3152:3, 3223:2–
13. Harvard’s expert conceded this at trial.
JA3150:10–13, 3151:17–23.
Harvard
rating

preferred

model

w/o

personal

Expert Report of David Card 74, Doc. 419-33, Ex.21.
In Harvard’s preferred model, the overall rate of
admissions for Asian Americans compared to a
counterfactual “if white” scenario was -.34% lower
and, as the asterisk indicates, statistically significant,
meaning it was unlikely to result from random

16
chance. JA3150:10–13. This number may seem small,
but that is because the number of admitted students
is very small compared to the number of applicants.
The rate of admissions for Asian Americans is
“between 5% and 6%.” App.170. Thus, for example,
under Petitioners’ preferred model, the average
marginal effect of 1% for Asian Americans translates
to “an over 16 percent decrease in their admissions
chances as a result of the Asian-American penalty.”
JA2279:21–23. A -34% average marginal effect would
similarly result in approximately a 6% reduction in
the chance of admission for Asian Americans
compared to whites. See infra p.23.
III. The Decisions Below Preferred Including
the Personal Rating.
Based on the personal rating model and other
evidence, the district court recognized that “[t]he
disparity in personal ratings between Asian American
and other minority groups is considerably larger than
between Asian American and white applicants.”
App.193–94. This disparity “suggests that at least
some admissions officers might have subconsciously
provided tips in the personal rating, particularly to
African American and Hispanic applicants, to create
an alignment between the profile ratings and the raceconscious overall ratings that they were assigning.”
App.194. Given the risk of racial bias, the district
court found “that the model without the personal
rating was ‘econometrically reasonable’ and
‘probative.’” App.87. But in the end, the district court
nevertheless concluded that “‘including the personal
rating results in a more comprehensive analysis.’”
App.87.

17
The court of appeals sustained this finding, for
two reasons.
First, the court of appeals stressed that the
personal rating was not influenced by Harvard’s
consideration of race. Instead, the court posited, the
disparity was likely explained by white “privilege”
outside of Harvard, reflected in part by white
applicants’ supposed better access to more
enthusiastic recommenders. App.86–94. Based on this
theory, the court of appeals accepted Harvard’s
contention that the risk of included variable bias from
including the personal rating was low and “[w]ithout
the personal rating, the model would suffer from
omitted variable bias.” App.94.
Second, the court also found that even excluding
the personal rating, the statistical evidence did not
suggest discrimination because any marginal effect
for Asian Americans compared to whites was, in its
view, small and likely caused by chance instead of
discrimination. App.95–98.
SUMMARY OF ARGUMENT
1. The Court should grant the petition because the
robust statistical record and gin-clear evidence of
discrimination make this case an ideal vehicle to
revisit the lawfulness of race discrimination in college
admissions under Grutter v. Bollinger, 539 U.S. 306
(2003).
2. The Court should also grant the petition because
the robust statistical evidence of discrimination
against Asian Americans compared to whites in
Harvard’s admissions makes this case an excellent
vehicle to address how courts should treat claims of

18
invidious discrimination against colleges under Title
VI.
The court of appeals’ incorrect suggestion—that
the statistical evidence does not support an inference
of discrimination against Asian Americans—presents
no vehicle problems. The court’s conclusion resulted
from a concerning misreading of the record, in which
it confused Harvard’s preferred model with
Petitioners’ preferred model. The court also
misunderstood basic statistical principles for when an
explanatory variable should be included or excluded
from a regression model, preferring a model that
included a racially biased variable. Finally, the court’s
white “privilege” hypothesis depended on non-record
evidence and contradicts the court’s own statistical
conclusions.
REASONS FOR GRANTING THE PETITION
I.

The Statistical Evidence of Discrimination
Makes This an Ideal Vehicle to Revisit
Race Discrimination in College
Admissions.
A. The Statistical Evidence is Robust.

In 1978, the Court praised the “Harvard plan” as
a proper way to consider race in an individualized,
holistic admissions process. Regents of Univ. of Calif.
v. Bakke, 438 U.S. 265, 316–19 (1978) (opinion of
Powell, J.). Since then, the holistic admissions
paradigm has spread through college campuses. But
because Harvard’s holistic process involves hundreds
of considerations, including secret or subjective
factors, the public has been unable to know how
Harvard’s admissions process operates in practice.

19
No longer.
The record in this case provides the Court an
opportunity to assess how the Harvard plan works in
reality and determine its consistency with the rule of
law.
The statistical evidence in this case is robust.
First, the dataset is unprecedented in its breadth
and completeness. It includes “six years of admissions
data from the class years 2014 to 2019,” comprising
“more than 150,000 applicants” and “about 10,000
offers of admission.” JA454:19–20; App.167. The
dataset includes “hundreds of variables relating to
each
applicant’s
demographic
characteristics,
personal background, geographic information, test
scores, high school grades, ratings assigned by
Harvard’s admissions officers, and Harvard’s
admissions decision.” App.168.
Second, the logistic regression models are robust
and provide an accurate picture of how Harvard
makes admission decisions. The models “isolate the
effects of race” while controlling for hundreds of other
variables Harvard considers in the admissions
process, allowing these models to accurately describe
how much weight Harvard gives to race. App.181–82.
While the experts disagree about modeling choices at
the margins, their disputes have been tested through
opening and rebuttal reports, lengthy trial testimony,
and an appeal, generating lengthy decisions on
modeling choices.
Simply put, this statistical record offers the Court
a rare opportunity to assess Harvard’s holistic process
on its own terms. The law surrounding affirmative
action in college admissions is fractured and unclear.

20
This is in large measure because post-Bakke cases did
not have well-developed records showing how an
applicant’s race factors into holistic college
admissions decisions. This has resulted in a
jurisprudence that speaks in Delphic generalities and
with numerous caveats. The well-developed record in
this case would give the Court the necessary specifics
to delineate what is and what is not permissible. The
Court should not let this record go to waste.
B. The Statistical Evidence of Racial
Discrimination is Robust.
In a limited class, a “tip” for some races is
statistically the mirror image of a discriminatory
penalty against other races. Admissions are zero sum.
A tip for one race is thus a penalty against other races.
The record shows that Harvard’s rating process
includes significant tips for favored racial groups.
Harvard, for instance, provides racial tips for African
Americans and Hispanics in the overall rating. Supra
pp.7–10. Harvard also provides racial tips for these
groups in the personal rating. Supra pp.13–16. These
tips significantly increase the chance of admission for
African Americans and Hispanics, and therefore
necessarily decrease the chance of admission for
whites and Asian Americans. According to Harvard’s
expert, without racial preferences, the African
American share of the class would fall from 14% to 6%
and the Hispanic share would fall from 14% to 9%.
App.209–10. Even on Harvard’s own accounting, race
was a determinative factor for nearly half of all
admitted African American and Hispanic applicants.
App.209. This statistical evidence of discrimination is
compelling.

21
As economists, amici state no opinion on
whether, as a legal matter, the compelling statistical
evidence of racial discrimination in favor of African
Americans and Hispanics—and therefore against
Asian Americans and whites—is prohibited
discrimination “on the ground of race.” 42 U.S.C.
§ 2000d. However, to the extent the Court thinks it
appropriate to revisit the legality of racial
discrimination in college admissions, the compelling
statistical evidence of discrimination in the record
makes this case an optimal vehicle to do so. Even if
that question is not revisited, this case provides an
excellent opportunity to provide much needed
guidance for lower courts. For example, how large a
“‘plus’ factor” can race be? Grutter, 539 U.S. at 335.
II. The Statistical Evidence of Discrimination
Against Asian Americans Makes This an
Ideal Vehicle to Clarify the Scope of Title
VI.
This case is also an ideal vehicle to resolve how
the Court should treat claims of invidious
discrimination alleging that colleges favor nonminority whites over minorities, here Asian
Americans.
To resolve this question, the court below focused
on whether there is evidence of a statistical penalty
for Asian Americans compared solely to whites. As a
statistical matter, that is an incomplete comparison.
In any event, the statistical evidence in this case
allows an inference of discrimination against Asian
Americans compared solely to whites. See supra
pp.15–16. Thus, this case also presents a rare
opportunity for the Court to clarify the standard that

22
must be met to prevail in claims of invidious
discrimination under Title VI.
Petitioners’ preferred model shows that being
Asian American is associated with a 16% decrease in
the chance of admission compared to whites. JA6017.
The statistical evidence is robust. Even using
Harvard’s own preferred model, simply excluding the
personal rating shows statistically significant
discrimination against Asian Americans compared to
whites over the six years of admissions. Supra pp.15–
16.
A. The court below erred when it suggested
the statistical evidence of an Asian
American “penalty” was not significant.
The court of appeals found that even when
excluding the personal rating, the statistical evidence
did not demonstrate discrimination against Asian
Americans because any marginal effect for Asian
Americans compared to whites was, in its view, slight.
App.95–98.
This finding is based on a profound
misunderstanding of the record and basic principles of
statistical analysis.
First, the court erred in describing the record,
incorrectly characterizing Harvard’s own preferred
model of admissions without the personal rating as
Petitioners’ preferred model. Compare App.95, with
JA3151:17–23. The court said that Petitioners’
“preferred model without the personal rating shows a
statistically significant overall average marginal
effect of -0.34%,” which it then characterized as small.
App.95. In reality, Petitioners’ preferred admissions
model has an average marginal effect of over -1% and

23
suggests a hardly insignificant 16% penalty for Asian
Americans compared to whites. JA2279:19–23.
Second, the court was incorrect that Harvard’s
model (which it incorrectly attributed to Petitioners)
did not show discrimination. The court’s finding that
a marginal effect of -.34% “is close to zero,” App.96,
profoundly misunderstands the basic principle of
statistics that the significance of a marginal effect
must be understood in the context of the original
probability. So, for example, if a lottery ticket has a
0.000001% chance of hitting the jackpot, a tiny
marginal increase of 0.000001% in fact doubles the
overall chance.
Getting into Harvard is more likely than winning
the lottery. But Harvard is one of the most selective
schools in the country, with an acceptance rate of
“between 5% and 6%” for Asian Americans. App.170.
Thus, an average marginal effect of -.34% is strong
evidence that being Asian American results in a
significant reduction in the chance of admission
compared to whites. In real world terms, a -.34%
marginal effect means that the probability of Asian
Americans being accepted declines by 5.6% to 6.8%
compared to whites, instead of the 16% suggested by
Petitioners’ model.
The court below also claimed that this evidence
was ambiguous because if one isolates a single year of
admissions data, for most years considered alone the
marginal effects are not statistically significant.
App.96. That is the equivalent of saying that if one
throws away most of the useful data, it is harder to
show that the penalty against Asian Americans is
unlikely to have arisen by chance. The court’s focus on
a single year in isolation, rather than the average

24
marginal effect for each year combined, is statistically
unsound.
B. The court below erred by finding that
inclusion of the personal rating was
proper.
There is no disagreement that, if the personal
rating is excluded from the admissions model, the
statistical evidence shows significant discrimination
against Asian Americans compared to whites.
But the court below thought it was reasonable to
include the personal rating in the admissions model
because the evidence did not show it was influenced
by race. The court’s rationale was statistically
unsound.
1. The personal rating’s tips justify its
exclusion.
As the district court observed, the disparity in the
personal rating “suggests that at least some
admissions officers might have subconsciously
provided tips in the personal rating, particularly to
African American and Hispanic applicants, to create
an alignment between the profile ratings and the raceconscious overall ratings that they were assigning.”
App.194.
If this hypothesis is correct, race influences the
personal rating, and the personal rating should be
excluded from the model. The reason is simple: “If race
influences the personal rating, including it in the
experts’ regression models could make it appear as if
Harvard does not discriminate when it does.” App.88
(emphasis omitted). Including a control variable
influenced by race is “statistically rather like saying

25
that once you correct for racial bias, Harvard is not
racially biased.” 6
Harvard’s expert acknowledged at trial that a
variable is correctly excluded from a regression model
if there is a substantial risk that it includes “tips” for
favored minority applicants, since that biases the
effect of race in the model:
Q: You think a rating cannot be used in your
model even if the influence of race in that rating
may be just a positive one, in other words, only a
tip being given to African-Americans, Hispanics,
and other groups, right?
A. Yes. If it was a pure tip based on the race
alone, yes.
JA3221:9–13.
Harvard’s expert, to be sure, attempted to limit
that concession by distinguishing “pure” or “per se”
racial tips from the use of race as “a contextual factor.”
JA3221:2–14. That distinction is unworkable. Amici
are not aware of—and Harvard’s expert did not
identify—any sound econometric method for
distinguishing the use of race as a “pure” versus
“contextual” tip. The subjective reason for the racial
tip, or the method of applying it, is statistically
irrelevant. What matters is that there is a racial tip
in the control variable that biases the effect of race in
admissions toward zero, causing included variable
bias. That requires exclusion of the personal rating.

The Economist, A Lawsuit Reveals How Peculiar Harvard’s Definition of Merit Is (June 23, 2018), https://econ.st/2MmJeYx.
6

26
2. The court’s alternative “privilege”
hypothesis is meritless.
In a bid to keep the biased personal rating in the
model, Harvard’s expert argued that exclusion of the
personal rating would likely give rise to omitted
variable bias. Harvard’s expert argued that factors
outside of Harvard’s process may be causing the
appearance that Harvard discriminates in the
personal rating. The court of appeals took the bait.
App.93. That was error.
At the outset, the court erred by asserting that
Petitioners’ personal rating model showing racial bias
was a “poor fit,” meaning the model did not explain
the data well and hence “important explanatory
variables may have been omitted from it.” App.89–90.
That is wrong. For the measure of fit used in the
personal rating model, “values of 0.2 to 0.4” are “an
excellent fit.” 7 The value the court claimed is a “poor”
fit is 0.28, well within the range of an excellent fit, as
testimony established. JA2311:1–15. Although this
does not disprove the possibility of omitted variable
bias, it shows there is little risk that missing data
could significantly alter the personal rating model’s
results.
Next, the court’s belief that omitted variable bias
was likely ignored basic economic principles. Both
experts agreed on “a general principle of economics,”
“that if a group is strong on observable characteristics,
they tend to be strong on unobservable
characteristics,” and vice versa. JA2265:11–13,
Daniel McFadden, Quantitative Methods for Analyzing Travel
Behavior of Individuals: Some Recent Developments 35 (Nov. 22,
1977), https://bit.ly/2JyWFCX.
7

27
2447:5–8. Given the observable evidence, one would
expect that any “missing data” would likely trend in
the same direction, meaning more complete data
would show that Asian Americans should be doing
even better on the personal rating and that African
Americans and Hispanics should be doing even worse.
See supra pp.12–13. The risk of omitted variable bias
given the observables is thus very low.
Ignoring this basic principle, the court found that
“[w]ithout the personal rating,” an admissions model
“would suffer from omitted variable bias.” App.94.
(Again, for bias to arise, the omitted variable must (1)
explain part of the personal rating score, the outcome,
and (2) must also be associated with race, the variable
of interest.)
To find omitted variable bias, the court zeroed in
on “one likely factor” external to Harvard: white
“privilege” in high school support. App.92. The court
hypothesized the following: (1) school support letters
show abilities like the capacity to “overcome
obstacles,” App.91, (2) those abilities are not captured
in Harvard’s numerical school-support ratings, so the
abilities are uncontrolled missing data in the model,
App.93 n.42, (3) that missing data, in turn, influences
the personal rating, and (4) that missing data is also
correlated with race because of white “privilege” in
high schools, by which the court meant that whites
have better access to enthusiastic recommenders
compared to Asian Americans. App.92–93.
The white “privilege” hypothesis fails for at least
two reasons.
First, to justify assumption (4), the court relied on
non-record evidence from an amicus brief, asserting

28
that “[p]rivileged students likely have better access to
schools with low student-to-teacher ratios and
teachers and guidance counselors with more time to
write strong, individualized recommendations.”
App.92. That may or may not be so, but it is not in the
record and was not subjected to the crucible of the
adversarial process. Reliance on that non-record
evidence is error, and alone justifies rejection of the
court’s assertion of omitted variable bias.
Second, even if one credited the court’s white
privilege theory, this would strengthen, not weaken,
the case for excluding the personal rating. The
relevant statistical question is whether the personal
rating is biased by race, not whether it is biased
against Asian Americans compared to whites. A
variable is biased even if it includes tips for African
Americans and Hispanics. If unobserved white
privilege explained the apparent bias in the personal
rating, one would expect that African Americans and
Hispanics who also lack the same white privilege
would have worse personal rating scores if this data
were available. Thus, even assuming the court’s
hypothesis is correct, the conclusion one would have
to draw from it is that Harvard’s tips for African
Americans and Hispanics in the personal rating are
even larger than they appear based on the observable
data, and even more unlikely to be caused by omitted
variable bias.
The court’s white privilege hypothesis was
unsound. The personal rating should be excluded. The
court’s conclusion to the contrary raises no vehicle
concerns because it was meritless.

29
CONCLUSION
The petition for certiorari should be granted.

Respectfully submitted,
C. BOYDEN GRAY
Counsel of Record
JONATHAN BERRY
MICHAEL B. BUSCHBACHER
JAMES R. CONDE
T. ELLIOT GAISER
JORDAN E. SMITH
BOYDEN GRAY & ASSOCIATES
801 17th Street NW, #350
Washington, DC 20006
(202) 955-0620
info@boydengrayassociates.com
Counsel for Amici Curiae
March 26, 2021

1a

APPENDIX A:
AFFILIATIONS OF AMICI CURIAE
Michael P. Keane, Professor of Economics and
at the University of New South Wales.
Hanming Fang, Professor of Economics at the
University of Pennsylvania.
Christopher J. Flinn, Professor of Economics at
New York University.
Stefan Hoderlein, Professor of Economics at
Boston College.
Yingyao Hu, Professor and Chair of Economics
at Johns Hopkins University.
Joseph P. Kaboski, Professor of Economics at
the University of Notre Dame.
Glenn C. Loury, Professor of Economics at
Brown University.
Thomas A. Mroz, Professor in the Department
of Economics at Georgia State University.
Matthew S. Shum, Professor of Economics at
the California Institute of Technology.

